    Jun, J, 200911:43AM                                                                  /lo, 1820     p, 2




(                        NATIONAL RAILROAD PASSENGER CORPORATION
                              OFFICE OF TI-ID INSPECTOR GENERAL
                                  OFFICE OF INVESTIGATIONS
                                   INVESTIGATIVE REPORT

          TITLE:                                              CASBNUMBER: 08 .. 114

          DATE OF REPORT:               J\U1e   I, 2009

          REPORT PREPARED BY: R S A _

         REPORT OF INTERVIEW:
         REPORT OF DOCUMENTS:
         OTHER ACTIVITY (DESCRIBE): posing Uenol't



         ItWM
                                                           ijiiiiiiiiiiiiii          falsified
                 tmbling I'ecol'ds regarding AMT 2 training for senlol' membol's of Arutruk's
         Eugineerlng Dellartment

         Findln!!B;
(
         or conducted its investigation into the mlllter. Interviews were conducted of Arutruk
         Bngitleering Department members, Tho allt,goltioll was substlUltlatcd.        did add
         the names of                                                           and
         _     10 AMT 2 training rosters that they



        -,
         On Jillll~ty 6, 2009, 01 referred the fmdin:gs
         Operating OfficeI' aud


         On JllnUaty 22, 2009, I received II memoranduIll from Crosbie. Crosbie requosted an
         extension on his response time and same was granted. SeD Exhibit I (Crosblo Momo),

        Ou FebmalY 9, 2009, I received the response from                            advised that she
        agreed with or's recoIllD1cndntiollS and wns                    steps to implcmellt those
        rccoll1IllendatioDs. or reeoivc(\ II repdmaud which             issued to _l'oga1(IIug
        her discipIluo. See Exhibit 2             RespoIllle Lettor and          Ropl'lmnud).

        On March 16, 2009, I received the response from Crosblo. In his response, he agreed
        with OI's reconunendations, exoept for Dot allowing        ~                    , to
        novel' being allowed to return to tho TralnJng Deportment. See Exhibit 3 (Crosbie
        Response).                  '                                                        '



                                                      1
    Jun,   I,    lUU~   11:4.iAM                                                 NO, IOlV   r,   j




                RooommendatIon:
                The investigation should be closed pending any new inf~iatlon,

                Deputy Inspector General/Counsel:    2t4- r;/4



(




                                                        2
